Audit
Report
           IMPORT PROCESSING OF DOD CARGO ARRIVING
                   IN THE REPUBLIC OF KOREA


Report No. D-2002-004                          October 4, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CBL                   Commercial Bill of Lading
GBL                   Government Bill of Lading
ROK                   Republic of Korea
SOFA                  Status of Forces Agreement
UMMIPS                Uniform Materiel Movement and Issue Priority System
USFK                  U.S. Forces Korea
                       Office of the Inspector General, DoD
Report No. D-2002-004                                                    October 4, 2001
   (Project No. D2000LH-0131.001)

                  Import Processing of DoD Cargo Arriving
                          In the Republic of Korea

                                    Executive Summary

Introduction. This is the second in a series of reports being issued by the Inspector
General, DoD, to address the effectiveness of the DoD supply and distribution system.
The Deputy Under Secretary of Defense (Supply Chain Integration) expressed concern
about whether the supply and distribution system was effective in delivering cargo to
customers overseas. This report discusses import processing by U.S. Forces Korea of
DoD cargo arriving in the Republic of Korea.

Objectives. Our overall objective was to assess the effectiveness of the DoD
distribution and transportation system in supporting the DoD strategic goal of reducing
logistics response time, as it relates to customers located outside the continental United
States. The specific objective for this portion of the review was to assess the import
processing of DoD cargo arriving into the theater at commercial ports of entry. We
issued our first report, Inspector General, DoD, Report No. D-2001-149,
“Coordinating and Tracking of Commercial Containers in Korea,” on June 22, 2001.
The specific objective in that report was to assess the movement of commercial
containers in the theater.

Results. DoD cargo arriving at Kimpo International Airport with commercial bills of
lading during a recent 30-day period averaged more than 4 days for import processing.
Of the 784 customs forms we reviewed, 674 (86 percent) of the forms exceeded
Uniform Materiel Movement and Issue Priority System delivery requirements by as
much as 34 days. Further, for 16 of the 22 customs forms we reviewed for cargo
arriving in the Port of Pusan with commercial bills of lading between February and
December 2000, import processing time exceeded Uniform Materiel Movement and
Issue Priority System requirements by as much as 176 days. As a result, import
processing time unnecessarily delayed delivery of DoD cargo valued at more than
$4.1 million to U.S. Forces Korea customers. In addition, import processing time
exceeded the Uniform Materiel Movement and Issue Priority System requirements for
both processing inbound cargo at a port of debarkation and in-transit shipment to the
consignee. Further, U.S. Forces Korea and Defense contractor personnel may have
unnecessarily expended U.S. Forces Korea resources by driving to Kimpo International
Airport to deliver customs clearance documentation, picking up cargo, and incurring
customs storage charges. For details of the audit results, see the Finding section of the
report. See Appendix A for details on the management control program as it relates to
import processing by U.S. Forces Korea of DoD cargo arriving into the Republic of
Korea using commercial bills of lading.
Summary of Recommendations. We recommend that the Commander, U.S. Forces
Korea, revise United Nations Command/U.S. Forces Korea Regulation 55-72 to require
U.S. forces and Defense contractors to process customs clearance forms and other
shipping documents the same day as received; provide advance notification of the
incoming cargo to customs clearance personnel; maintain current addresses, locations
or contact points with customs clearance personnel; change procedures to preclude
consignees from driving to Kimpo International Airport to process customs forms
unless commercial delivery is unavailable; and establish procedures for payment of
storage charges to the Republic of Korea Customs House. Further, we recommend
implementation of a cost-effective, efficient, and reliable system for automated
processing of customs forms using an electronic data interchange.

Management Comments. We provided a draft of this report on June 22, 2001.
Comments on the draft report were received too late to be considered in preparing this
final report. If the Commander, U.S. Forces Korea, does not submit additional
comments by November 5, 2001, we will consider the comments received as the
response to the final report.




                                           ii
Table of Contents

Executive Summary                             i


Introduction
     Background                              1
     Objective                               2

Finding
     Import Processing                        3

Appendixes
     A. Audit Process
         Scope and Methodology               11
         Management Control Program Review   11
         Prior Coverage                      12
     B. Report Distribution                  13
Background
    This report is the second in a series resulting from our audit of the effectiveness
    of the supply and distribution system. The Deputy Under Secretary of Defense
    (Supply Chain Integration) expressed concern about whether the supply and
    distribution system was effective in delivering cargo to customers overseas. We
    examined import processing procedures for DoD cargo that arrived in the
    Republic of Korea (ROK) from the time of cargo arrival at the port of
    debarkation through the time cargo was cleared through customs by the
    U.S. Forces Korea (USFK) Customs Clearance Office. This report discusses
    import processing by USFK of DoD cargo in-bound to the ROK.

    Management Reform Memorandum No. 15. In 1997, the Secretary of
    Defense called for fundamental changes in transportation processes. The result
    was Management Reform Memorandum No. 15, “Reengineering Defense
    Transportation Documentation and Financial Processes.” Management Reform
    Memorandum No. 15 directed not only complete reengineering, through
    automation, of DoD transportation documentation and financial processes, but
    also outlined methods to streamline movement of DoD cargo to save money.

    One of the goals of the reengineering effort was to eliminate use of
    Government/DoD-unique transportation documentation, such as the Government
    bill of lading (GBL), and replace it with a commercial bill of lading (CBL). A
    GBL is a Government document used to procure transportation and related
    services from commercial carriers. A CBL is a commercial carrier document
    used for transportation of shipments and includes the commercial procedures
    related to the use of such documentation.

    U.S. Transportation Command, USFK, and the Defense Logistics Agency have
    efforts underway to eliminate the need for GBLs on international shipments, to
    identify impediments for clearing foreign customs using CBLs, and to identify
    procedures, processes, or agreements that solve or eliminate those impediments.
    Initial efforts are focused on customs clearing in the ROK. If effective, the new
    procedures will eventually allow shipments to be cleared using only
    appropriately marked CBLs transferred electronically to the Korea Customs
    Service. Initial tests will be limited to cargo shipped from the Defense Logistics
    Agency, Defense Distribution Depot, San Joaquin, California. However, those
    tests will not encompass cargo ordered by USFK organizations directly from
    commercial vendors.

    Defense Transportation Regulation. DoD Regulation 4500.9-R, Defense
    Transportation Regulation, “Customs and Border Clearance Processes,” Part V,
    January 2001, establishes policy and serves as the single authoritative source for
    customs and border clearance processes and procedures for U.S. forces located
    in foreign countries such as the ROK. The regulation defines DoD
    responsibilities and identifies custom clearance requirements for DoD cargo
    entering and exiting selected countries in support of U.S. forces. Normally,
    U.S. Government military shipments are not subject to duties and taxes. In
    foreign countries, procedures outlined in DoD Regulation 4500.9-R should
    allow U.S. forces’ cargo to enter duty free.


                                         1
    Uniform Materiel Movement and Issue Priority System. The Uniform
    Materiel Movement and Issue Priority System (UMMIPS) provides a basis for
    managing movements of materiel throughout the DoD distribution system.
    UMMIPS ensures that materiel requirements are processed according to mission
    importance of the requiring organization, an urgency of need, and specific
    management considerations. The system establishes time standards for
    maximum requisition processing and materiel movement for DoD organizations.

    For nonexpress air deliveries (Transportation Priority 1) of cargo to an overseas
    theater, UMMIPS allows .5 days for port of debarkation processing and 1 day
    of in-transit time to the customer, for a total delivery time of 1.5 days.
    However, for commercial express deliveries (Transportation Priority 1) to an
    overseas theater, UMMIPS does not allow any time for port of debarkation
    processing but does provide 1 day of in-transit time to the customer, for a total
    delivery time of 1 day.
    Commercial express delivery service is an alternative service that may be used
    for time-sensitive cargo when commercial routine delivery service or Air
    Mobility Command service is not available or adequate. Commercial express
    service is available for shipments that have a high transportation priority, an
    expedited Required Delivery Date, and a maximum weight of up to 150 pounds.

    Generally, surface deliveries (Transportation Priority 3) are used for less
    time-sensitive cargo. For Transportation Priority 3 deliveries, UMMIPS allows
    3 days for processing cargo at a port of debarkation and 5 days for in-transit
    shipment to the consignee.


Objective
    The audit objective was to assess the effectiveness of the DoD distribution and
    transportation system to support the DoD strategic goal of reducing logistics
    response time, as it relates to customers located outside the continental United
    States. The specific objective for this portion of the review was to assess import
    processing at commercial ports of entry in the ROK. We issued our first report,
    Inspector General, DoD, Report No. D-2001-149, “Coordinating and Tracking
    of Commercial Containers in Korea,” on June 22, 2001. The specific objective
    in that report was to assess the movement of commercial containers in the
    theater. See Appendix A for discussion of the audit scope and methodology,
    review of the management control program, and prior coverage.




                                        2
           Import Processing
           DoD cargo arriving at Kimpo International Airport with CBLs during a
           recent 30-day period averaged more than 4 days for import processing.
           Of the 784 customs forms we reviewed, 674 (86 percent) of the forms
           exceeded UMMIPS delivery requirements by as much as 34 days.
           Further, for 16 of the 22 customs forms we reviewed for cargo arriving
           in the Port of Pusan with CBLs between February and December 2000,
           import processing time exceeded UMMIPS requirements by as much as
           176 days. Those conditions occurred because:

           •   USFK organizations did not immediately complete and return
               customs clearance forms and other required supporting
               documentation to customs clearance offices to obtain customs
               clearance certification, and

           •   USFK guidance did not specify up-to-date procedures concerning
               ongoing import processing activity at ports of debarkation within the
               ROK.

           As a result, import processing time unnecessarily delayed delivery of
           cargo valued at more than $4.1 million to USFK customers.
           Specifically, import processing time exceeded UMMIPS requirements
           for the total time allowed of both processing inbound cargo at a port of
           debarkation and the in-transit shipment time from the port of debarkation
           to the consignee. Further, USFK and Defense contractor personnel may
           have unnecessarily expended USFK resources by driving to Kimpo
           International Airport to deliver customs clearance documentation,
           picking up cargo, and incurring customs storage charges.


Command Guidance and Responsibilities
    Command guidance and responsibilities concerning import processing for
    shipments using GBLs and CBLs is provided by the U.S.-ROK Status of Forces
    Agreement (SOFA) and United Nations Command/USFK regulations.

    U.S.-ROK Status of Forces Agreement. According to the Defense
    Transportation Regulation, the U.S.-ROK SOFA states that all materials,
    supplies, and equipment imported by U.S. forces, for official use of U.S.
    forces, shall be permitted entry into the ROK. The SOFA also states that such
    entry shall be free from customs duties and other such charges, and that
    appropriate certification shall be made that such materials, supplies, and
    equipment are being imported by U.S. forces for the exclusive use of U.S.
    forces. Further, the U.S. and ROK Governments agreed that “it is expressly
    understood that USFK imports which enter the ROK on U.S. GBLs shipments
    require no additional certification since these shipments are, by nature of their
    shipment, expressly for the use of USFK.”




                                         3
           United Nations Command/USFK Regulation 55-72. The United Nations
           Command/USFK Regulation 55-72, “Transportation and Travel: Customs
           Clearance of the United Nations Command and USFK Imports and Exports,”
           February 11, 1983, establishes the procedures for carrying out the provisions of
           the SOFA, including certification of duty-free customs clearance.

           USFK Provost Marshal. The USFK Provost Marshal is the lead customs
           clearance officer and has oversight over the SOFA Support Division, SOFA
           Customs Clearance Office, and is responsible for establishing USFK customs
           clearance procedures in accordance with United Nations Command/USFK
           Regulation 55-72. The SOFA Customs Clearance Office is responsible for
           performing customs clearance duties and establishing duty-free certifications for
           DoD shipments that arrive at ROK ports of entry. SOFA Customs Clearance
           Officers are appointed by the Provost Marshal.
           Bills of Lading. As a result of the SOFA, USFK cargo arriving in the ROK by
           Military Sealift Command vessels, Air Mobility Command aircraft, and by way
           of commercial air and surface carriers using GBLs for payment require no
           additional certification, stamps, or signatures from SOFA Customs Clearance
           Officers. Major commercial air and surface carriers routinely process those
           shipments through customs and deliver the cargo to its destination in accordance
           with the terms of the contracts.

           USFK cargo arriving in the ROK by way of commercial air and surface carriers
           using a CBL for payment requires a customs clearance certification (the
           procedures are described below) from a SOFA Customs Clearance Officer.


Import Processing Procedures for Commercial Air Shipments
  with CBLs
           Import processing procedures for commercial air shipments with CBLs involved
           coordination among the commercial air carrier, the USFK consignee, the SOFA
           Customs Clearance Office, and the ROK customs office. At the time of the
           audit, commercial air cargo shipments to the ROK normally arrived at Kimpo
           International Airport1 located in Seoul, Korea. USFK import processing at
           Kimpo International Airport begins when a commercial carrier establishes the
           cargo date of entry and ends when the SOFA Customs Clearance Office certifies
           that the cargo has cleared customs. We were unable to measure the ROK
           customs processing time.

           Commercial Air Carrier and Consignee. The air cargo shipments arriving at
           Kimpo International Airport are delivered immediately to the commercial air
           carrier warehouse for storage. The carrier prepares a USFK Customs
           Form 95 EK, “Import Declaration Certification,” (customs form) and other
           shipping documents, and faxes those documents to the consignee for completion.

1
    In March 2001, international air traffic, including shipments of DoD cargo, was permanently rerouted
    from Kimpo International Airport to Incheon International Airport located in Incheon, Korea.



                                                      4
    The consignee reviews the documents for accuracy, and an authorized consignee
    signs the customs form to validate the air cargo as official USFK cargo. When
    those steps are complete, the consignee faxes or hand carries the customs form,
    along with related shipping documents, to the SOFA Customs Clearance Office
    at Kimpo International Airport.

    SOFA Customs Clearance Office. Once the documentation for the shipment is
    received from the consignee, the SOFA Customs Clearance Officer verifies that
    the documentation is in proper order, checks the identity and Government orders
    of the consignee, checks the consignee signature against a signature card file
    (personnel who routinely sign for shipments as a designated agent), affixes an
    original signature to the custom form, and certifies the custom form as “customs
    cleared.”

    ROK Customs Office and Commercial Air Carrier. At Kimpo International
    Airport, commercial air carrier personnel pick up daily from the SOFA Customs
    Clearance Office the customs cleared forms for their own company.
    Commercial air carrier personnel deliver those customs forms to the ROK
    customs office to obtain an authorization of duty-free clearance. Upon
    completion of the ROK customs office processing, the cargo is released from the
    commercial air carrier for delivery to the consignee. For surface transportation,
    the commercial air carrier normally contracts with a local carrier for the final
    delivery of the cargo to the consignee.


Import Processing
    DoD cargo arriving at Kimpo International Airport with CBLs averaged more
    than 4 days for import processing. Of the 784 customs forms we reviewed, 674
    (86 percent) of the forms exceeded UMMIPS delivery requirements by as much
    as 34 days. Further, for 16 of the 22 customs forms we reviewed for cargo
    arriving at the Port of Pusan with CBLs, the import processing time exceeded
    UMMIPS requirements by as much as 176 days.

    Cargo Processed at Kimpo International Airport. At Kimpo International
    Airport, the SOFA Customs Clearance Office processed during calendar year
    2000 about 13,000 customs forms for DoD cargo entering the airport. The
    customs forms processed had a declared value estimated at about $126 million
    and included cargo such as aircraft parts, computer equipment, and medical
    supplies.

    Import Processing at Kimpo International Airport. We reviewed a universe
    of 784 customs forms processed at Kimpo International Airport for the 30-day
    period ending February 9, 2001. Those customs forms had a declared value
    estimated at about $5.3 million. The table below shows the range of values for
    DoD cargo processed through the SOFA Customs Clearance Office for the
    period reviewed.




                                        5
          Table 1. Range of DoD Cargo Processed by Declared Value
                    (January 10 through February 9, 2001)

                                  Number of Customs      Approximate
         Declared Value            Forms Processed         Percent
        >$100,000                           7                  .9
         $50,001-$100,000                  16                 2.0
         $10,001-$50,000                   83                10.6
         $ 1,000-10,000                   294                37.5
        <$ 1,000                          384                49.0
       Total                              784               100.0



For the 30-day period ending February 9, 2001, DoD cargo arriving at Kimpo
International Airport with a CBL averaged more than 4 days for import
processing. According to UMMIPS standards, the cargo should have been
processed and delivered in no more than 1.5 days. Our review showed that 674
(86 percent) of the 784 customs forms reviewed, valued at about $3.8 million,
took 2 or more days to process. The review also showed that the processing
days for the 784 customs forms ranged between 1 and 34 days. The table below
shows the range of days for DoD cargo processed through the SOFA Customs
Clearance Office for the period reviewed.

    Table 2. Range of DoD Cargo Processed by Days for Import Processing
                   (January 10 through February 9, 2001)

    Number of Days      Number of
      to Process      Customs Forms        Approximate
    Customs Forms       Processed            Percent      Declared Value
          1                 110                 14.0       $1,527,582
         2-5                521                 66.5        3,022,736
         6-10               114                 14.5          623,748
        11-15                22                 2.8           104,531
        16-20                12                 1.5            47,854
         >20                  5                 0.7             3,439
        Total               784                 100        $5,329,890



Import Processing at the Port of Pusan. In addition to the 784 customs forms
for cargo delivered through Kimpo International Airport, we reviewed 22
customs forms processed from February through December 2000 that arrived by
surface shipment at the Port of Pusan. The 22 forms were provided by Military
Traffic Management Command customs clearance personnel at the Port of
Pusan who stated that the items were delayed because of import processing.
The 22 items were commercially shipped with a CBL and had a declared value
estimated at about $8 million.



                                      6
    Usually, cargo that arrives at the Port of Pusan has a low transportation priority
    (Transportation Priority 3). We were unable to determine the transportation
    priority of the cargo that required customs clearance at the Port of Pusan.
    However, for cargo with a Transportation Priority 3, UMMIPS allows 3 days
    for processing cargo at a port of debarkation and 5 days for in-transit shipment
    to the consignee. The results of our audit showed that 6 of the customs forms
    were processed between 1 and 3 days. The processing time for the remaining
    16 customs forms, valued at $300,000, exceeded UMMIPS standards by as
    much as 176 days, with a median processing time of 11 days. Additional
    review of those customs forms showed that:

           •   16 of the forms took 4 or more days to process, in which 3 took
               more than 100 days to process, and

           •   11 of the forms exceeded UMMIPS standards for processing and
               delivering cargo from the port of debarkation to consignee.


Impact of Import Processing Times
    The import processing time unnecessarily delayed delivery of cargo valued at
    more than $4.1 million to USFK customers. Specifically, import processing
    time exceeded UMMIPS requirements for the total time allowed for processing
    both the inbound cargo at a port of debarkation and the in-transit shipment time
    from the port of debarkation to the consignee. Further, USFK and Defense
    contractor personnel may have unnecessarily expended USFK resources by
    driving to Kimpo International Airport to deliver customs clearance
    documentation, picking up cargo, and incurring customs storage charges.

    According to SOFA Customs Clearance Office officials, many of the consignees
    who picked up cargo at Kimpo International Airport were unaware of the
    requirements for customs processing. Those consignees allowed cargo to be
    held at the airport until the consignee could pick it up. We identified 82
    instances during an 8-month period in which consignees drove to Kimpo
    International Airport to have customs forms certified, hand carried the customs
    forms to the ROK Customs House, and picked up their cargo.

    Further, the consignees were required to pay storage charges to the ROK
    Customs House for cargo held for more than 24 hours. The ROK Customs
    House required payment in cash with ROK currency rather than by Government
    credit card or in cash using U.S. dollars. According to SOFA Customs
    Clearance Office officials, many of the consignees were unaware of the
    requirement to pay the storage charges.


Completion of Customs Forms
    USFK organizations did not immediately complete and return customs clearance
    forms and other required supporting documentation to customs clearance offices


                                         7
    to obtain customs clearance certification. Customs forms were not completed
    daily nor were they immediately forwarded upon completion to the SOFA
    Customs Clearance Office.

    A total of 18 USFK organizations and Defense contractors were responsible for
    delays in processing 530 (69 percent) of the 784 customs forms that we
    reviewed. Processing times for the 18 organizations and Defense contractors
    averaged from between 2 and 10 days. For example, the 3rd Maintenance
    Company, 1-43rd Air Defense Artillery, Suwon Air Base, Korea, took an
    average of 10 days to process 11 customs forms. A Defense contractor at the
    751st Military Intelligence Battalion, Camp Humphreys, Korea, took an average
    of about 4 days to process 44 customs forms. The reasons provided by
    consignees for not timely completing the customs forms included topics such as
    personnel were in training, in the field, on leave, or too busy.

    At the Port of Pusan, the 22 customs forms averaged about 35 days for import
    processing at the Military Transportation Management Command Customs
    Clearance Office. For each of the 22 items, personnel at the Customs Clearance
    Office had to locate the consignee to initiate the customs clearance process.
    Personnel at the Customs Clearance Office stated that delays in the customs
    clearance process occurred when consignees are not known or cannot be located
    upon the arrival of cargo at the port.


USFK Guidance
    USFK guidance did not specify up-to-date procedures concerning ongoing
    import processing activity at ports of debarkation within the ROK. USFK
    guidance for import processing was not updated to emphasize ongoing import
    processing problems.

    The United Nations Command/USFK Regulation 55-72 did not specify the need
    for USFK organizations and Defense contractors to immediately complete and
    return customs clearance forms and other required shipping documents to the
    customs clearance offices. In addition, the guidance did not require consignees
    purchasing materiel with Government credit cards or purchase orders (with
    shipments to be made using CBLs) to provide advance notification through their
    transportation offices of the incoming cargo to USFK customs clearance
    personnel at ports of debarkation. Further, the guidance did not require
    consignees to maintain up-to-date addresses, locations, or contact points with
    USFK customs clearance personnel at ports of debarkation. Those procedures
    are necessary to ensure immediate processing of customs forms.

    Finally, current USFK guidance emphasizes, to the maximum extent possible, in
    light of manpower constraints, mission requirements, and physical location, that
    consignees drive to Kimpo International Airport to process customs forms at the
    customs clearance office and pick up cargo. We disagree with the guidance, as
    it encourages unnecessary use of USFK resources. Rather, the guidance should
    require procedures for processing customs clearance forms that are efficient,
    through electronic means if possible, to make it unnecessary for consignees to
    drive to ports of debarkation.


                                       8
    At the time of our visit, the office of the Provost Marshal was in the process of
    implementing a system that would automate processing customs forms through
    an electronic data interchange. The system was expected to enhance the existing
    import process that relies heavily on manual processing and facsimile machines,
    although some potential customers we talked with had concerns about the cost to
    use the system. However, USFK has not conducted an analysis of the cost
    effectiveness of using the system, and we believe such analysis would be
    prudent before full implementation of the system. Because the system was
    undergoing implementation, we were unable to assess the efficiency, reliability,
    or potential costs of the system for improving the import process.


Conclusion
    We reviewed 806 customs forms for shipments with CBLs at Kimpo
    International Airport and at the Port of Pusan. Of those 806 customs forms, the
    import processing time for 690 of the forms exceeded UMMIPS requirements
    for the total time allowed for both processing inbound cargo at a port of
    debarkation and the in-transit shipment time from the port of debarkation to the
    consignee. The import processing times exceeding UMMIPS requirements and
    unnecessarily delayed delivery of cargo valued at more than $4.1 million to
    USFK customers. Although we did not project the results of our review, we
    believe that a significant number of the customs forms annually processed for
    shipments using CBLs at Kimpo International Airport and at the Port of Pusan
    may have taken more days than UMMIPS requirements allow and the cargo
    delayed may also be of significantly greater value. We concluded that an
    automated import process that uses an electronic data interchange would help
    expedite the processing of customs clearance forms as well as moving cargo to
    its final destination.

    We did not determine the cost incurred by USFK for unnecessarily driving to
    Kimpo International Airport to deliver customs clearance documentation,
    picking up cargo, and incurring customs storage charges. Although the majority
    of DoD cargo arrived into Kimpo International Airport using commercial
    express delivery door-to-door service, the local guidance encourages consignees
    to drive to Kimpo International Airport to pick up cargo. In addition, the new
    Incheon International Airport is about 15 miles farther from Seoul than is Kimpo
    International Airport. We believe that the driving time and expense may
    significantly increase during trips made to Incheon International Airport and that
    USFK could reduce command expenses and lost personnel time by curtailing
    those practices.




                                        9
Recommendations
    We recommend that the Commander, U.S. Forces Korea:

           1. Revise United Nations Command/U.S. Forces Korea
    Regulation 55-72 to require U.S. Forces Korea organizations and Defense
    contractors to:

                   a. Process customs clearance forms and other shipping
    documents and return to the customs clearance offices using electronic means
    (such as facsimile machines) the same day as received, if feasible.

                   b. Provide advance notification of the incoming cargo through
    servicing transportation offices to customs clearance personnel at ports of
    debarkation when purchasing materiel with Government credit cards or purchase
    orders (with shipments using commercial bills of lading).

                  c. Maintain up-to-date addresses, locations, or contact points
    with customs clearance personnel at ports of debarkation to facilitate customs
    processing and onward movement of cargo.

                   d. Modify procedures to preclude consignees from driving to
    Incheon International Airport to process customs forms at the customs clearance
    office and pick up cargo unless commercial carrier delivery is not available.
    and

                   e. Establish procedures for payment of storage charges in ROK
    currency to the Republic of Korea Customs House.

          2. Implement a cost-effective, efficient, and reliable system for the
    automated processing of customs forms using an electronic data interchange.


Management Comments Required
    Comments on the draft report were received too late to be considered in
    preparing this final report. If the Commander, U.S. Forces Korea, does not
    submit additional comments, we will consider the comments received as the
    response to the final report.




                                       10
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD and United Nations Command/USFK
    regulations concerning policies, responsibilities, and procedures for import
    processing by USFK of DoD cargo arriving in the ROK using a CBL. We
    performed our audit work at Kimpo International Airport and at the Port of
    Pusan. For this segment of the overall audit, our effort concentrated on import
    processing by USFK of DoD cargo arriving in Korea with CBLs. We reviewed
    784 customs clearance forms and supporting documents for cargo arriving at
    Kimpo International Airport for a 30-day period ending February 9, 2001, to
    assess the processing times. Further, we reviewed 22 customs clearance forms
    and supporting documents for cargo arriving at the Port of Pusan from February
    through December 2000. We examined customs clearance office records to
    review DoD cargo arriving at Kimpo International Airport and the Port of Pusan
    from January through December 2000. We did only limited testing of the
    customs clearance records to assess the import process with CBLs.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following objectives and goals in the
    Logistics Functional Area:

           Objective: Reduce logistics cycle times. Goal: Implement Total Asset
           Visibility. (LOG-1.2)

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from April 2000 through June 2001 in accordance with
    generally accepted Government auditing standards except that we were unable to
    obtain in opinion on our system of quality control. The most recent external
    control review was withdrawn March 15, 2001, and we will undergo a new
    review. We did not use computer-processed data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Adequacy of Management Controls. The conditions identified in this report
    are attributed to the lack of management controls over import processing of

                                       11
    DoD cargo arriving in the ROK with CBLs. Recommendations 1. and 2. in the
    finding for the Commander, USFK, to revise United Nations Command/USFK
    Regulation 55-72 and implement a cost-effective, efficient, and reliable systems
    for automated processing of customs forms will correct the conditions cited in
    the report and help ensure that unnecessary delays in import processing are
    reduced significantly.

    We identified material management control weaknesses for the USFK as defined
    by DoD Directive 5010.40. The USFK management controls for import
    processing of DoD cargo arriving in the ROK using a CBL were not adequate
    because USFK organizations did not immediately complete and return customs
    clearance forms and other supporting documentation to customs clearance
    offices to obtain customs clearance certification. Also, United Nations
    Command/USFK guidance did not specify up-to-date procedures concerning
    ongoing import processing activity at ports of debarkation within the ROK. A
    copy of the report will be provided to the senior officials responsible for
    management controls within the Army.

    Adequacy of Management’s Self-Evaluation. No assessment was made of the
    USFK import processing of DoD cargo arriving into the ROK using CBLs as an
    assessable unit. Therefore, we cannot reach a conclusion on management’s
    self-evaluation of that area.

Prior Coverage
    During the last 5 years, the Inspector General, DoD, has issued one report that
    discusses transportation issues in the ROK. Unrestricted Inspector General,
    DoD, reports can be accessed over the Internet at http://www.dodig.osd.mil.


Inspector General
    Inspector General, DoD, Report No. D-2001-149, “Coordinating and Tracking
    of Commercial Containers in Korea,” June 22, 2001




                                       12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Acquisition, Technology, and Logistics)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Pacific Command
   Commander, U.S. Forces Korea
U.S. Transportation Command
  Military Traffic Management Command

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Subcommittee on Surface Transportation and Merchant Marines, Committee on
  Commerce, Science, Transportation
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on Coast Guard and Maritime Transportation, Committee on
   Transportation and Infrastructure
House Subcommittee on Highways and Transit, Committee on Transportation and
   Infrastructure
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       14
Audit Team Members


The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Robert M. Murrell
Keith A. Yancey
Celia J. Harrigan
Scott S. Cygan
